NEWS
 United States Department of Justice
 U.S. Attorney, District of New Jersey
 970 Broad Street, Seventh Floor
 Newark, New Jersey 07102
 Christopher J. Christie, U.S. Attorney

More Information? Dial the Public Affairs UpDate Line (973-645-3657), or call the Assistant
U.S. Attorney or other contact listed below to see if more information is available.

News on the Internet: News Releases, related documents and advisories are posted short-
term at our website, along with links to our archived releases at the Department of Justice in
Washington, D.C. Go to: http://www.njusao.org/break.html




Assistant U.S. Attorney                                         ford0430.rel
Mark R. Winston                                     FOR IMMEDIATE RELEASE
973-645-2874                                                   April 30, 2004




            Owner of Helicopter and Airplane Repair Business
                    Accused of Endangering Aircraft


                                           (More)

Public Affairs Office                               UpDates — 973-645-3657
http://www.usdoj.gov/usao/nj/                                 973-645-2888
Michael Drewniak, PAO

 Breaking News (NJ) http://www.usdoj.gov/usao/nj/publicaffairs/index.html
NEWARK – The owner of a Monmouth County helicopter and airplane repair business was
arrested today on a federal Indictment charging him with creating a safety risk with respect to
certain aircraft and, on occasion, doing so while his FAA certification was revoked, U.S.
Attorney Christopher J. Christie announced.

An Indictment returned on Wednesday and unsealed today charges John Ford, 62, of
Farmingdale, with two counts of destruction of aircraft and nine counts of making false
statements within the jurisdiction of a U.S. Government agency.

Ford was arrested at his business this morning by Special Agents of the U.S. Department of
Transportation, Office of Inspector General.

According to the Indictment, Ford is the owner of a company called Raco Helicopter
Corporation, located at Monmouth County Airport in Farmingdale. The Indictment alleges that
in June 2003, Ford created a safety risk by installing used parts, which had surpassed their useful
life-span, to secure the rotor assembly on a Hiller helicopter. Furthermore, between March and
April 2001, it is alleged that Ford made false statements about the inspection and maintenance
performed on a Bell helicopter owned by the County of Monmouth. According to the
Indictment, Ford stated that the helicopter was airworthy when, as the defendant well knew, it
was not, thereby creating a safety risk.

The Indictment further alleges that, on a number of occasions, Ford represented in helicopter
repair logs that he was certified by the Federal Aviation Administration to inspect and do repairs
on helicopters when, in fact, his certification from the FAA had been revoked.

The defendant had an initial appearance today before U.S. Magistrate-Judge Mark Falk in
Newark. Ford was released on a $200,000 personal recognizance bond pending trial.

If convicted, Ford faces a maximum of twenty years in prison and a fine of $250,000 on each of
the two destruction of aircraft counts. He also faces a maximum of five years in prison and a
fine of $250,000 on each of the nine counts of making false statements, according to Assistant
U.S. Attorney Mark R. Winston.

Despite Indictment, every defendant is presumed innocent, unless and until found guilty beyond
a reasonable doubt, following a trial at which the defendant has all of the trial rights guaranteed
by the U.S. Constitution and federal law.

Christie credited Special Agents of the U.S. Department of Transportation, Office of Inspector
General, under the direction of Ned Schwartz, Special Agent in Charge, with developing the case
against Ford.

The Government is represented by Assistant U.S. Attorney Mark R. Winston, of the U.S.
Attorney's Government Fraud Unit in Newark.

                                              – end –
